OIG Investigative Reports, Former State Employee Charged with Stealing Money
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
Maryland Attorney General
J. Joseph Curran, Jr.
For
Immediate Release
February 23, 2006
Media Contact:
Kevin Enright
410-576-6357
February 23, 2006
PRESS RELEASE
Former State Employee Charged with Stealing Money
Maryland Attorney General J. Joseph Curran, Jr. announced today that a Criminal Information has been filed in the Circuit Court for Prince George’s County against Stacey B. Brown, of Contee Rd. in Laurel.
The Criminal Information charges Ms. Brown, 38, with one count of felony theft in connection with her former employment with Bowie State University. It is alleged that between June 1, 2001 and October 7, 2003, Ms. Brown stole $28,000.00 from the University.
A Criminal Information is merely an accusation of wrongdoing, and every individual is presumed innocent until the charges are proven by the State. The case was investigated by the Office of the Inspector General for the U.S. Department of Education and the Maryland State Police, and will be prosecuted by the Office of the Attorney General, Criminal Investigations Division.
Attorney General of Maryland
1 (888) 743-0023 toll-free
TDD: (410) 576-6372
Printable view
Share this page
Last Modified: 02/24/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov